FILED
SEP 2 5 2019
OFFICE OF THE CLERK
SUPREME COURT. US.

In The

Supreme Court of the United States
CHRIS JAYE,
Petitioner,
v.
OAK KNOLL VILLAGE, et. al.
Respondents.

APPLICATION
TO EXTEND TIME TO PETITION FOR CERTIORI
AND CONSOLIDATE SECOND APPEAL
with
PENDING PETITION 18-1374
and
ORDER DOCKETING OF APPLICATIONS
TO JUSTICE SAMUEL ALITO

Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

To the Honorable US Supreme Court Justice Samuel Alito:
I have requested an emergent stay of judgments in the Third Circuit via Justice Neil Gorsuch.
Please see attached. There is one underlying case, two appeals and two mandates. It is lunacy
and judicial waste at its finest - brought to you by the federal judges of the US Court of Appeals,
Third Circuit.
In light of the incredible departures of normal judicial procedures in play, the costly, pending
petition with this Court (18-1374) and the unknown result of this attached motion to Justice
Gorsuch1,1 am asking for an extension to file my petition of this mandate/judgment (attached to
motion to Justice Gorsuch). As you will note per my motion, my petition for a rehetring and
hearing en banc have not been docketed due to the illegal sanction order. The games never end.
As per due process (which does not exist), I cannot know if an extension will be needed or not.
The games being played by the federal judges have turned this into utter chaos and I am
bouncing around multiple courts trying to keep up. Add to that, Clerk Harris not docketing my
applications in this Court sent to you directly by tracked mail has not helped the situation.
In light of the complete lack of normal due process, I am requesting an extension to file my
petition of this second judgment (if needed). I believe this Court can see that there is need that is
extraordinary.
In the alternative, I request this extension and permission to allow the second mandate petition be
supplemented with 18-1374 - and heard together as one.
1 I know not if Clerk Harris will docket or even actually forward my motion to Justice Gorsuch. As a pro
se litigant who is unfairly barred from filing by ECF by arbitrary rules by judges which give lawyers
incredible advantages over the unrepresented, my documents arrive at the US Supreme Court but then end
up never getting docketed. Six applications to you have yet to be docketed. And no one will respond to
my letters demanding an answer. (Thus the mystery that is the United State Judiciaiy continues.)
1

fc the

fih

ir®|e;rB«fe»

be veeated“aiKii|his
Mietworaandatesshouldbe
over a non-final case (with no R, 60

adjudicated) as well as due to state claims being illegally dismissed with prejudice for lack of
subject matter jurisdiction (but then not transferred tq the statecourt).
f

iteis. retumedta the US District Court df brewJetsey, this CourtpEovile
matterbeadjudieated aceordingtotlusUoutrs

■■ directiye - iricluding butnnt limiteife m 8 miMicksmt Pardus.

Chris AnnJaye;

1

No.

In The

Supreme Court of the United States
CHRIS JAYE,
Petitioner,
v.
OAK KNOLL VILLAGE, et. al.
Respondents.

MOTION FOR EMERGENT STAY
OF SECOND MANDATE AND SANCTION ORDER
FROM THIRD CIRCUIT

FOR REVIEW BY JUSTICE NEIL GORSUCH
Chris Jaye
Pro se
PO Box 5015
Clinton, NJ 08809
caj@okvnews.com

TABLE OF CONTENTS
Background

1-7

Five Year Pattern of Illegality and Discrimination
Against Pro se Litigant
•
•
•
•
•

Erickson v. Pardus and R. 8 Violated
Illegal Pleading Standard Instituted
Illegal Screening Process Instituted
Illegal Preclusion (Rooker-Feldman)
Illegal Disn lissals with Prej udice

List of US Supreme Court Petitions
•
•

Seven in Total (since 2015)
Two Rejected, Returned and Not Docketed

Present and Pending Petition with US Supreme Court
18-1374
•
•

7-8

8

List of US Supreme Court Application
Six in Total (not docketed)

List of US District Court of New Jersey

8-9

Illegal Dismissals
Untimely Appeals
Circuit Court Lacked Jurisdiction
State Claims Held Hostage
100% Denial of All Relief and Remedies
100% Denial of Stays of State Action
100% Avoidance of Challenges to State Statutes
100% Violation of Federal Rules of Court
Reasons for Emergent Stay

9-11

Relief from Lawless Federal Officers (Federal Judges)
Cannot Be Obtained

11-13

Conclusion

14-15

Third Circuit Second Judgment from Second Appeal
Third Circuit Sanction/Censor Order

Attached

NOT TO BE DECIDED BY THE CLERKTo the Honorable US Supreme Court Justice Neil Gorsuch:
I have a petition for certiorari with supplemental appendix pending in this court now. It is
docketed as US Supreme Court No. 18-1374. Since the judgment/mandate was entered by the
Third Circuit (which was not final), I have been forced to incur the cost not only this petition to
the US Supreme Court but deal with a second appeal per the same case.
•
•
•

US Distri ct Court of New Jersey, 15-08324.
US Court of Appeals, Third Circuit: #1 Appeal: 17-2564.
US Court of Appeals, Third Circuit: #2 Appeal: 18-2187.

There have been two appeals in one case with two separate mandates. The pattern of illegality
taking place is endless in these courts. And the cost to me to deal with these games is a cost that
no citizen should have to bear.

BACKGROUND
There has been a five year pattern of illegality taken place by federal judges in the US District
Court of New Jersey and US Court of Appeals, Third Circuit (as well as the Judicial Council of
the Third Circuit). As a result, there has been a 100% dismissal of all my claims by illegal tricks
and tactics used by federal officers (federal judges). The goal has been to block, bar and prevent
my access to the court. And it has now gone even further in that I have been censored and
sanctioned by the circuit judges for filing a suit against state actors and lawyers. Federal judges
are violating my First Amendment rights and barring me from a court of law (without due
process) by and through this illegal order and censorship of my filings.

1

Upon judicial review of my five federal cases, multiple appeals and multiple petitions to the US
Supreme Court, you will find that there is an illegal practice in play whereby federal judges use
illegal tactics to bar suits of pro se litigants. The conduct is illegal and it is criminal.
Upon judicial review, you will note that I filed my first federal suit in 2014. Since my first filing
against state actors (judges), the conduct of the federal judges has been discriminatory, hostile,
harassing and illegal. Every directive of the US Supreme Court, every court rule and every
federal law has been violated by federal judges in every case.
The pattern in play (which departs from the US Supreme Court’s clear directives) has been to
illegally screen pro se cases (of non-prisoners) by unauthorized tactics. As an initial tactic used
to kill cases, federal judges illegally preclude claims via Rooker-Feldman to prevent access to
the court of pro se suits. (You will also find that federal judges routinely presume the validity of
state judgments: a finding that cannot be presumed when the validity of a state judgment is
challenged by the pleadings, pleading which are required to be taken as factual per this Court’s
directive.)
If that fails to work as the illegal tactic to ri d a pro se litigant from the court, then the Twombly
standard is used wherein the district and circuit judges assert facts were not sufficiently pled. To
this day, Erickson v. Pardus has never been applied yet nor has any federal judge even attempted
to glean anything from any of my factual complaints as directed be done by the US Supreme
Court time and time again. In fact, the facts in my complaint were repeatedly revised by federal
judges in direct violation of US Supreme Court’s directives in order to dismiss my cl aims.
If the pleading standard fails to suffice, then they claim dismissals with prejudice when
supplemental jurisdiction over state claims is claimed lost. But then, the federal judges do not

2

transfer the state claims to be heard in a state court. And when this tactics fail to suffice, federal
judges (Judge Kugler) use an Order to Show Cause routine to dismiss defendants (state and
federal actors) or simply gift immunity (without summary judgment) to anyone who is employed
by any government.
Add to that, state claims are either dismissed illegally or just never adjudicated by state law, even
at the circuit level. In 16-2641, the Erie Doctrine was deliberately abused as the tool by which to
affirm dismissal of state claims by federal common law (which cannot be done).
As to any consideration of any new Bivens claim as per federal officers, no such consideration is
applied. In fact, Judge Peter Sheridan was illegally represented by the US Attorney General’s
Office in violation of federal law which resulted in his dismissal without him even ever
appearing. (16-07771) R. 55 fell to the wayside as to an entry of default against him.
Worse yet, the circuit judges have asserted de novo review of a ruling of moot to illegally gift
immunity to any and all state actors at the appellate level - even when no ruling of immunity was
ever granted at the district level. Not only did circuit judges illegally seize control over non-final
rulings and refuse to remand the cases (while holding hostage state claims), they violate the
standard of review this Court has set to be applied to correct such illegality by district j udges.
De novo review could never be applied as law by the appellate court judges since immunity is a
doctrine, not law. But de novo review (16-2641) to apply immunity at the circuit level was
applied. This tactic (used to pull a fast one on a pro se litigant) prevented any appeal of the
illegal mandate of affirmation of a non-final judgment. And as a bonus, it made an interlocutory
order of the district court be transformed into one barred by res judicata - at the appellate level!

3

At every stage and by every illegal tactic and trick, federal judges are violating federal law,
federal rules of court, US Supreme Court directi ves (including long established directives on
liberal pleading standards) to implement an illegal screening mechanism and ad hoc rulings to
prevent, bar and block valid suits brought to the federal court by citizens of the United States.
Since all their illegal tactics have failed to silence me and prevent me from being ruined (as was
the plan of all federal judges involved who have conspired with state actors in this illegal
scheme), I have been sanctioned. I have been sanctioned - and cannot access the court until I
pay monies for these sanctions.
Retaliation by Federal Judges: Because I would not give up, I was sanctioned. Because I
called out lawyers and judges, I was sanctioned. Because I highlighted the corrupt conduct of
state judges and those in the legal profession, I was sanctioned. And because 1 dared to do what
federal judges, the NJ Attorney General, the United State Department of Justice and Federal
Bureau of Investigation will not do in terms of getting to the bottom of this statewide RICO
enterprise involving the theft of private property by void judicial decrees, I have been attacked,
barred, sanctioned, fined and censored by federal judges.
Federal judges do not want pro se litigants in their own federal courts. This is how they block
us. Federal judges do not want judges held to account. This is how they prevent it.
The censorship/sanction order is just the latest proof of the obstruction ofjustice in play by
federal judges. This is how far these criminals who call themselves federal judges will go to
protect this scheme involving state judges in the State of New Jersey - which may involve
kickbacks to federal judges as well.

4

Although I have standing and valid claims, I am without a court because of federal judges. And
it is due to the illegal acts of federal officers (federal judges) that I have been illegally
sanctioned. It is due to the advocacy of federal judges to protect their own that I have been
barred from filing anything. It is because I dared to petition my own government (First
Amendment), enjoy my civil rights (42 USC 1983-1988), express myself as to the corruption and
criminal conduct of state judges, state actors and state lawyers (First Amendment) that I am
being silenced. I am being punished, blocked and barred - and am being censored (yet again).
And this is - simply put - obstruction of justice.
Discrimination and Advocacy by Federal Judges: The pattern and practice of the federal
government (via federal judges) of bias against pro se litigants is beyond obvious with just the
slightest review of fast-tracked dismissals. We, pro se litigants, are treated as second-class
citizens and abused until we go away. There is sufficient case law to prove this to be true.
More disturbingly, there is advocacy on the part of judges to aid other judges. Upon review of
my cases, you will see it is an established practice and policy for no state actor to ever need to
hire their own attorneys (of suffer any financial loss) for claims against them sued as individuals.
The schemers (federal j udges and state actors) have arranged that dismissals will come for state
actors: one way or the other. Whether they appear or not (in any capacity or not at all), they will
be dismissed. My cases (amongst many others) are proof that this is happening.
Deliberate Deprivation of Access to Pursue Claims: After five years of this illegal routine in
play, it is not coincidental that two cases that were not final ended up being seized by the US
Court of Appeals, Third Circuit: seized and then killed with finality. It is not coincidental that
non-final judgments declaring a loss of supplemental jurisdiction have never been remanded to
the state courts. It is not coincidental that Judge Michael Shipp and Judge Robert Kugler gifted
5

immunity to all (including judicial immunity to a county clerk) to kill off complaints without
summary judgments; including for those who never appeared at all. And it is not coincidental
that circuit judges used de novo review illegally to apply immunity (16-2641): ensuring no
appeal from this ruling could be had.
Everything is designed to protect government workers (state and federal). Free them from
litigation. Free them from liability. Everything is designed and implemented to ensure that no
government actor (state or federal) ever even needs to mount a defense - especially against a pro
se litigant. And this is why I have never been able to pursue a single claim yet.
The racket, scheme and illegality that is in play with the force of color of law backing it ensures
(guarantees) that no pro se litigant can enjoy their federal or state rights in a federal court. By
the illegal acts of federal judges, pro se litigants seeking to pursue remedies in the law and enjoy
their rights are blocked by every trick and tactic under the sun. As a result, a citizen’s civil rights
(First Amendment) are thwarted- and by the very people hired to uphold them, federal judges.
Circling the Wagons: Federal judges clearly think they can pull any trick on a citizen to bar
them from court and get away with it by the benevolence of other judges of attorneys in the US
Department of Justice. This is proven because the Judicial Council of the Third Circuit has
established that it will not investigate their own - and it too has barred me (illegally) from filing
any additional judicial complaints.
Upon review, you will see that every judge bars me from filing documents (or fails to docket
documents) whenever I get too close to revealing the crimes ofjudges. It is arranged this way.
And this is obstruction of justice - which no federal employee will address.

6

As it stands per the orders now at issue, the sanction order and second mandate (utterly illegal)
are just the latest orders in an ongoing scheme. And they need to be stayed. Skilled lawyers
who know exactly how to work the system against the citizen under the pretense of being judges:
but all of this violates the Constitution which these federal judges have all sworn to uphold.

LIST OF US SUPREME COURT PETITIONS
1.
15-753: Jaye v. Oak Knoll Village, et. al. (denied)
Contract Clause, 14th Amendment, Due Process Violations by State of New Jersey
NJ Supreme Court
2.

16-451: Jaye v. Oak Knoll Village, et. al. (denied) (15-08324)
Interlocutory: FRCP Violations by US District Court
Third Circuit Denied Appeal
3.

17-738: Jayev. NJ AG Hoffman, et. al. (denied) (14-07471)
Petition: Third Circuit Judgment (on Non-Final Order)
Third Circuit (16-2641)
4.
17-739: Jaye v. NJ AG Hoffman, et. al. (denied) (14-07471)
Petition for Mandamus: Seeking Mandate to Make Federal Judges Follow Law

5.
Not Docketed (Returned by Clerkl: Jaye v. Oak Knoll Village, et. al. (15-08324)
Prejudgment Petition for Certiori (40 Booklets)
6.
Not Docketed (Returned by Clerkl: Jaye v. NJ AG Hoffman (16-07771)
Petition Regarding Denial of Injunction on Unconstitutional Prejudgment State Liens
Third Circuit Denied Appeal: 17-2231
Motion to Judge Gorsuch Not Decided: Everything Returned.
7.

18-1374: ******PENDING NOW*****: Jayev. Oak Knoll Village, et. al. (15-08324)
Petition: Third Circuit Judgment (17-2564)

Plus: ILLEGAL SECOND APPEAL: Jaye v. Oak Knoll Village, et. al. (15-08324)
Third Circuit Docket 18-2187
Judgement Entered - Seeking Extension to File Petition or Have Supplemented with 18-1374

7

Cost to Citizen v. Government Employee: The words judicial economy are as foreign to the
federal judges of the US District of New Jersey and US Court of Appeals, Third Circuit as are
the US Supreme Court’s directives on piecemeal litigation, finality and the liberal pleading
standard. The cost to a citizen in dealing with criminals parading about as federal judges is
great, but it is of no cost and ZERO CONSEQUENCE to the federal judges to play these games.
None have been investigated, disciplined or referred for impeachment for their illegal conduct.

PRESENT APPLICATIONS TO US SUPREME COURT per 18-1374
(NOT DOCKETED BY CLERK HARRIS TO THIS DA Y)
•
•
•
•
•
•

January 17, 2019 - Application to US Justice Alito
January 17, 2019 - Application to US Justice Alito
January 25, 2019 - Application to US Justice Alito
February 22, 2019 - Application to US Justice Alito
June 6, 2019 - Application to US Justice Alito
August 15, 2019 - Application to US Justice Alito

NOTE: Clerk Harris has received all of these by tracked mail. They have all been received by
the US Supreme Court. I am clearly being censored by the government employees of the United
States’ Judicial Branch again. None have been docketed to this day. Several address the issue of
the two appeals in the matter of 15-08324: Jaye v. Oak Knoll Village (petition #7).

LIST of US DISTRICT COURT OF NEW JERSEY
1. 07471-14: Jaye v. NJ AG Hoffman
(non-final, forced into appeal, state claims not transferred/ adjudicated)
2. 15-08324: Jaye v. Oak Knoll Village, et. al. (non-final, forced into appeal.)*
*US Supreme petition pending now. 18-1374. Separate secondjudgment exists.

3. 15-5303: Oak Knoll Village v. Jaye
(Removal action. Denied. No appeal could be taken.)
8

4. 16-07771: Jaye v. NJ AG Hoffman, et. al.
(non-final, summons not provided, lingering in limbo, illegally closed)
5. 17-05257: Jaye v. US District Court Michael Shipp, et. al.
(non-final, summons not provided, lingering in limbo)
NOTE: Not one claim survived the pleading stage in any of these cases. Not one case was
remanded to district court. Not one claim was transferred to a state court. Killed at every stage
by every federal judge.

REASONS for EMERGENT STAY of BOTH ORDERS
1. The sanction order is illegal. Access to the court to petition for a rehearing or hearing en banc
cannot require payment of sanctions first. This illegal order was issued sua sponte, absent any
lawful right and without any right to even file a motion for reconsideration. It is unlawful and
void. And it should be stayed until the US Supreme Court, at the least, gives me the opportunity
to have the first judgment (18-1374) heard by this Court.
2. The right to a rehearing and hearing en banc is a court rule authorized by Congress. It is,
therefore, a right. The Third Circuit cannot bar me from rights by the rules by this order nor can
it censor my filings as it continues to do. (A timely petition for a rehearing and hearing en banc
was served and received. It was just not docketed as per the sanction order.)
3. The pending petition (18-1374) will likely be heard due to the incredible departures from
normal procedure. If heard, the US Supreme Court will dictate what comes of the illegal second
judgment by the Third Circuit in the same underlying case as well as the sanction order that
applies.

9

4. The federal judges of the Third Circuit had no jurisdiction over the first or second appeal.
According, the orders stemming from the second appeal are void as a matter of law and should
be treated as such (as should that resulting in the petition to this court now pending, 18-1374).
5. My applications to Justice Samuel Alito have not been heard because they have not been
docketed. They need to be heard since an evidentiary hearing as to the Third Circuit’s finding
that I lacked evidentiary proof as per calling state judges “thieves” as a basis for barring me from
ECF and ordering sanctions against me is warranted. Due process and equal protection affords
me the right to have an evidentiary hearing to provide the Third Circuit with the evidentiary
proof it needs that the state judges, state actors and state lawyers are “thieves” as I have stated.
6. Judicial economy dictates there be no piecemeal litigation. The Third Circuit (along with the
US District Court of New Jersey) have done nothing but cause additional litigation, including,
but not limited to, splitting appeals as they have done. Worse yet, they did not provide rulings
on all matters appealed, remanded no non-final orders and transferred no state claims which were
dismissed for loss of supplemental jurisdiction. It is impossible for a citizen to know what ruling
is the judgment (to petitioned as final) when there are judgments all over the place: all which fail
to conform to federal law as to finality, the FRCP or FRAP.
7. Federal judges have acted as advocates and not judges. The result is the illegality in these
orders which are intended to do nothing but silence me and prevent me from petition ing my
government which is a FIRST AMENDMENT RIGHT.
8. The Third Circuit did not address any of the failures of the district court judges as it pertains
to executing federal statutes. No constitutional challenges to state statutes have been
adjudicated. No stays of state action have been given. Every right to every remedy has been
10

barred and blocked. My rights via the 14th Amendment remain violated as a result of the illegal
actions by federal officers (federal judges) who have refused to provide me with the equal
protection of the law by and through these orders. THEY HAVE NOT DONE THEIR JOBS.

ANY RELIEF FROM LAWLESS FEDERAL OFFICES
(FEDERAL JUDGES! CANNOT BE OBTAINED
I can request no stay from the Third Circuit without paying for the sanctions. They have refused
to allow me to file anything until I pay these sanctions. As per my First Amendment rights, I
will not pay for sanctions for speaking my mind. Federal judges have no right to force me to pay
sanctions in order to file documents with a court, especially documents which deal with the
illegality of the orders itself.
I will not pay these sanctions. No judge has a right to force me to pay money as a punishment
for speaking out against my corrupt state government and courts.
I have every right to call state actors (especially state judges) “scum” and “thieves” as they have
played a direct, central role in stealing my property, depriving me of clean title, denying me due
process and denying me equal protection under the law in one case after the next since 2008. I
will not retract these statements nor apologize for them. I do not have to do so. And there is no
“safe space” for offended federal judges.
I have suffered hundreds of thousands of dollars in loss and years of deprivation by void
judgments and illegal, unconstitutional prejudgment liens by state actors. (See US Supreme
Court 15-753, cert denied.) In reverse, every claim brought against the perpetrators has been
illegally dismissed (with no right to amend). The words “scum” and “thieves” are appropriate as
11

it applies to state actors (judges). I have had no trials: an inviolate right by the NJ Constitution.
There has been no evidence entered in any case. I have been denied the right to all defenses. I
have been deprived the right to cross-examine the alleged “Plaintiffs.” The judges simply rule
against me. 100%. And then they enter judgments to allow the extortion of my money by
private parties via public judgments. It is theft by judicial decree. And the state judges are
thieves.
State judges (aiding lawyers in a statewide scheme) are stealing people’s property by illegal
court proceedings and void judicial decrees. Their rulings are void. And they cannot stand as a
matter of law.
The federal courts (including this Court) was supposed to address this. They did not. Instead, I
have been SANCTIONED me for being a victim of a criminal scheme. If not for federal judges
seeking to shield the crimes of their colleagues, the actions of state actors and lawyers in the state
court would have been stayed as a matter of law as is my right as a person who filed a civil rights
suit. But instead, federal judges have done nothing.
For five years, they have done nothing to uphold my rights. Thus to seek relief from them now
would be futile. Moreover, any attempts at relief sought would only be permitted if I paid these
sanctions. And I will not pay these sanctions. And due to the ad hoc law in play, God knows
what they would demand if I actually complied. I will not fall into their illegal trap yet again.
It is due to the illegal advocacy on the part of federal judges (many with ties to NJ Chief Justice
Stuart Rabner and his cronies involved in this RICO enterprise) that I have had to incur the cost,
loss and deprivation of rights in the state courts. Piecemeal litigation could have been prevented.
Removal and supplemental jurisdiction could have been granted. Stays could have been issued.
12

And if any of this was done (execution of federal statutes as required by federal officers), I
would not have lost 12 years of my life and hundreds of thousands of dollars in a scheme to
enrich lawyers in the State of New Jersey. And I would not now be facing the illegal theft of my
inheritance and another illegal foreclosure. All of this could have been prevented by federal
judges. It was not. So seeking relief from them now would be a joke. And a total waste. These
federal judges are not judges: they are criminals.
To seek any stays from such criminals parading about as federal judges would be futile. They
have shown their colors, their advocacies and their illegality. Their latest sanction/censorship
order is proof that they will continue to play a role in seeing me financially ruined a plan that
was put in motion since my first filing in the federal court in 2014.
In fact, the purpose of the sanction order is to fast-track my financial ruin and delay proceedings
(such as a remand of the case itself) so that their state actor buddies can continue to steal from
me without impairment in the state action they all refuse to stay. I am being attacked on every
front - and have no court where remedies exist.
Worse yet, federal judges (aided in part by the US Department of Justice) have failed in their
duty to prevent this known conspiracy to violate civil rights. Considering they think they are out
of reach of the law, this court - THE US SUPREME COURT - needs to act.
The questions remain:
Will this reach you, US Supreme Court Justice Gorsuch?
Or will Clerk Harris return it so that it is never seen?

13

CONCLUSION
The US Supreme Court needs to stay these orders. If anything, it needs to stay both orders until
such time that I can supplement 18-1374. A second “mandate” is unprecedented as was the
second appeal and the seizure of non-final orders by the Third Circuit judges in the first place.
If the Judicial Council of the Third Circuit executed federal statutes according to the directives of
Congress, many of these federal judges would have been under investigation for their unfit,
corrupt conduct. If this had happened, these federal judges would have been less inclined to take
the bold, illegal steps they have taken to silence me, punish me, sanction me and harm me as
they have done. There is a reason Congress makes law... although federal judges routinely
ignore them as they see fit.
Since no one hold federal judges accountable by olher federal officers and they operate on the
presumption that this Court will never hear any of my petitions (possibly because clerks deny
them without any justice reviewing my petitions), this Court needs to act.
In light of the fact that most pro se litigants would not be as inclined to study the law, challenge
the lies, file appeals, and petition the US Supreme Court as many times as I have, I fear for the
rights of other pro se litigants will less resources and time. This Court should fear for their rights
as well. The travesty of justice is too great, the discriminatory too real, the harm too severe and
the inequity too obvious for this Court to turn a blind eye to it.
It is beyond evident that the US Supreme Court’s directives are being ignored by federal judges.
They need to be held to account. When they decide to pull fast ones and depart from this Court’s
directive, they should be forced to answer for their action. No one is above the law.

14

If

mSmPkmnv. Pardm istop ctmn<*u»n,

^■itefea^Jggg^ajg^aBjBi^ he m she should notpreside tfvterfed^l
not competent if they Carifcot understand :the lawl
theouh^eoieasefas has been the mm in my case),

$bgpm

depaihjres are belng ipHe ttJ iig
ji{|p cannot serve the

■ihpged with crimes for mdl«|ln^a^nal &%&%&&& the ihte©!^ tpfet^p«s^i«l
rights ofthecitizens larsinpassthe ^political desires„fnendshipand financial
MWl®eted rogue, lawless lawyersm black robes.
As to this illegal sanction order, T will not pay it I spoke my mind and will continue to do so, I
mm teSlei»:di%spi- hlew Jersey statejudges aiettneves. Chief Justice Rdbner runsa
'.

. .

iudiciaI

throughvoidjudiiMfi^5- ®e:ga|e ppa#(a#
If given a court (dr even;an^#Ienii|ay hearin^?fwiii

prove this to be avfact. All these “honorable judges” in the US District Court of New Jersey and
wed do is giye me a day Mmm alll wiil prove mycase!
As to sanctioning, die federal judges should be.
rightsartd cauSedall thischaosatid uimecessaty expenseto
me as well as the taxpaying public. IMMgSS conduct isn0t|udicial,mrt expectedofa
neutr^Judge and should not be shielded by any claimsof immunity for any reason.

Chris Ann Jaye /
Pm se, Petitiyier

15

